       The James Madison Council
        of the Library of Congress

             Annual Report
                 2006




  2006
Annual Report                   23
                                                                     Mr. Paul A. Allaire *                   Ms. Consuelo Duroc-Danner
                                                                     Former Chairman and CEO                 Houston, TX
                                                                     Xerox Corporation
                                                                                                             Dr. Marjorie M. Fisher
                                                                     Stamford, CT
                                                                                                             Bloomfield, MI
                                                                     Mrs. Ruth S. Altshuler
                                                                                                             Mrs. Marjorie S. Fisher
                                                                     Dallas, TX
                                                                                                             Franklin, MI
                                                                     Mr. and Mrs. John T. Amend *
                                                                                                             Mrs. Richard W. Fisher
                                                                     President and Chief Executive Officer
                                                                                                             Dallas, TX
                                                                     The Amend Group
                                                                     Dallas, TX                              Mr. and Mrs. J. Jeffrey Fox
                                                                                                             Annapolis, MD
       Founding                                                      Mrs. Norma K. Asnes
                                                                     New York, NY                            The Honorable J. Richard Fredericks
      Membership                                                     Mr. and Mrs. Roger S. Baskes
                                                                                                             Main Management LLC
                                                                                                             San Francisco, CA
                                                                     General Partner
                                                                     The Baskes Office                       Mr. and Mrs. Jack M. Friedland
                                                                     Chicago, IL                             Jupiter, FL
       Chairman                                                      Mrs. Barbara Taylor Bradford            Mrs. Gay Hart Gaines
  H.F. Gerry Lenfest *                                               Director                                Palm Beach, FL
    President & CEO                                                  Bradford Enterprises
   The Lenfest Group                                                                                         Mr. John K. Garvey
                                                                     New York, NY
 West Conshohocken, PA                                                                                       President and CEO
                                                                     Mrs. William N. Cafritz                 Petroleum, Inc.
         Treasurer                                                   Bethesda, MD                            Wichita, KS
 Mr. Leonard L. Silverstein                                          Ms. Nancy Cain Marcus                   Mrs. Nancy Glanville Jewell *
  Buchanan Ingersoll, PC                                             Dallas, TX                              Glanville Family Interests
      Washington, DC                                                                                         Houston, TX
                                                                     Mrs. D. Wayne Calloway
           Founding                                                  Greenwich, CT                           Mr. Thomas H. Glocer *
       Chairman Emeritus                                                                                     Reuters Group PLC
                                                                     Mr. and Mrs. Francois J. Castaing
      Mr. John W. Kluge *                                                                                    Cannary Wharf, England
                                                                     Bloomfield Hills, MI
     Chairman and President                                                                                  Dr. Barbara Guggenheim and
     Metromedia Company                                              Mr. James H. Clement, Jr.
                                                                                                             Mr. Bertram H. Fields
          New York, NY                                               Dallas, TX
                                                                                                             Los Angeles, CA
                                                                     Mr. Lloyd E. Cotsen
       Chairman Emeritus                                                                                     Mr. Stein Erik Hagen
                                                                     President
      Mr. Edwin L. Cox *                                                                                     Canica AS
                                                                     Cotsen Management Corporation
           Chairman                                                                                          Oslo, Norway
                                                                     Los Angeles, CA
     Edwin L. Cox Company                                                                                    Mrs. Sally Harris
           Dallas, TX                                                Mr. Peter D. Cummings *
                                                                                                             New York, NY
                                                                     Chairman
        Founding                                                     Ram Development Co.                     Mr. John S. Hendricks *
    Member Emeritus                                                  Southfield, MI                          Chairman and Founder
   Mr. Robert P. Gwinn                                                                                       Discovery Communications, Inc.
                                                                     Mrs. Charles A. Dana, Jr.
 Encyclopaedia Britannica                                                                                    Silver Spring, MD
                                                                     New York, NY
       Riverside, IL                                                                                         Mr. Leo Hindery, Jr. *
                                                                     Mrs. Gina H. Despres
                                                                                                             Chairman
        Founding                                                     Senior Vice President
                                                                                                             HL Capital, Inc.
    Member Emeritus                                                  Capital Research and Management
                                                                                                             New York, NY
 Mrs. Julienne Krasnoff *                                            Company
      Glen Cove, NY                                                  Washington, DC                          Mr. and Mrs. John G. Hoeschler
                                                                                                             St. Paul, MN
                                                                     Mr. and Mrs. Dick DeVos
                                                                     The Windquest Group                     Ms. Caroline Rose Hunt
                                                                     Grand Rapids, MI                        The Rosewood Corporation
                                                                                                             Dallas, TX
                                                                     Mr. Charles W. Durham *
                                                                     Chairman of the Board                   Mr. Glenn R. Jones *
                                                                     Durham Resources LLC                    Chief Executive Officer
                                                                     Omaha, NE                               Jones International, Ltd.
                                                                                                             Englewood, CO




24         J A M E S   M A D I S O N   C O U N C I L   O F   T H E   L I B R A R Y   O F   C O N G R E S S
Mr. Jerral W. Jones *              Mr. John J. Medveckis                   Lady Susie Sainsbury of Turville
Owner and General Manager          Partner and Director                    London, England
Dallas Cowboys Football Club       Cooke & Bieler, Inc.
                                                                           Mr. B. Francis Saul II
Irving, TX                         Philadelphia, PA
                                                                           Chairman and CEO
Mrs. Earle M. Jorgensen            Mr. and Mrs. Edward S. Miller           Chevy Chase Bank, F.S.B.
Los Angeles, CA                    Washington, DC                          Bethesda, MD
Mrs. Charlotte P. Kessler          Mr. Donald E. Newhouse                  Mr. Walter Scott, Jr. *
New Albany, OH                     President                               Chairman
                                   Advance Publications, Inc.              Level 3 Communications, Inc.
Mr. James V. Kimsey
                                   Newark, NJ                              Omaha, NE
Founding CEO & Chairman Emeritus
America Online, Inc.               Dr. Erik D. Olsen *                     Mr. L. Dennis Shapiro
Washington, DC                     President                               President
                                   AARP                                    Arzak Corporation
Mr. Jay I. Kislak *
                                   Washington, DC                          Chestnut Hill, MA
Chairman
J. I. Kislak, Inc.                 Mr. Arthur Ortenberg                    Mr. Raja W. Sidawi *
Miami, FL                          New York, NY                            CEO/Owner
                                                                           RWS Energy Services, Inc.
Mr. David H. Koch *                Mr. Marshall B. Payne
                                                                           New York, NY
Executive Vice President           Managing Partner
Koch Industries, Inc.              CIC Partners L.P.                       Mr. Albert H. Small
New York, NY                       Dallas, TX                              President
                                                                           Southern Engineering Corporation
Mr. H. Fred Krimendahl II          Mrs. Frank Perdue
                                                                           Bethesda, MD
Chairman                           Salisbury, MD
Petrus Partners Ltd.                                                       Mr. Frederick W. Smith *
                                   Mrs. Margot Perot
New York, NY                                                               Chairman and CEO
                                   Dallas, TX
                                                                           Federal Express Corporation
Mr. Sidney Lapidus
                                   Mr. Stephen C. Perry II                 Memphis, TN
Partner
                                   President and Chief Executive Officer
Warburg Pincus, LLC                                                        Mr. Henry J. Smith
                                   Claritage Capital, LP
New York, NY                                                               Bud Smith Organization, Inc.
                                   New York, NY
                                                                           Dallas, TX
Mr. Bruce Lauritzen
                                   Mrs. Shirley E. Phillips
President                                                                  Mr. Raymond W. Smith *
                                   Co-Owner
First National Bank of Omaha                                               Verizon Ventures
                                   Phillips Seafood and Restaurants
Omaha, NE                                                                  Arlington, VA
                                   Ocean City, MD
Mr. and Mrs. Irvin L. Levy                                                 Mr. John A. Thain
                                   Mrs. Charles H. Price II
President                                                                  Chief Executive Officer
                                   Indian Wells, CA
NCH Corporation                                                            New York Stock Exchange, Inc.
Irving, TX                         Mr. Frederick H. Prince                 New York, NY
                                   Chairman
Mr. Ira A. Lipman                                                          Ms. Thorunn Wathne
                                   F. H. Prince and Company
Owner and CEO                                                              Wathne Ltd. - Polo Handbag
                                   Washington, DC
Guardsmark                                                                 New York, NY
New York, NY                       Mr. Bernard Rapoport *
                                                                           Ms. Joan M. Wegner
                                   Chairman Emeritus and Founder
Mr. Jon B. Lovelace *                                                      Oak Brook, IL
                                   American Income Life Insurance
Ecalevol, Inc.
                                   Company                                 Mrs. Beatrice W. Welters
Santa Barbara, CA
                                   Waco, TX                                President
Mr. Thomas Luce III                                                        An-Bryce Foundation
                                   Mrs. Catherine B. Reynolds
Dallas, TX                                                                 Vienna, VA
                                   Chairman and CEO
Mr. Cary M. Maguire *              Catherine B. Reynolds Foundation        The Honorable John C. Whitehead
President                          McLean, VA                              New York, NY
Maguire Oil Company
                                   Mr. and Mrs. Elihu Rose                 Ms. Diane R. Wolf
Dallas, TX
                                   Partner                                 New York, NY
Mr. and Mrs. Thomas B. Martin      Rose Associates, Inc.
                                                                           Mr. Michael B. Yanney
Leawood, KS                        New York, NY
                                                                           Chairman
Mr. Aubrey K. McClendon            Mr. David M. Rubenstein                 America First Companies
Chairman, CEO, and Director        Managing Director                       Omaha, NE
Chesapeake Energy Corporation      Carlyle Group                           * Names of Jeffersonians, Madison Council
Oklahoma City, OK                  Washington, DC                          members who have given $1 million or more




                                                                                      A N N U A L    R E P O R T   2 0 0 6   25
                                                                                                Statement of Financial Position
                                                                                                   James Madison National Council Fund
                                                                                                              September 30, 2006




             2006                                                                       ASSETS
     Financial Statements                                                               Cash                                                $     102,968
                                                                                        Investments: (Note 2)
                                                                                            U.S. Treasury Market Based
                                                                                            Securities                                          3,962,714
                                                                                            Growth and Income Pool                                795,761
                                                                                        Total investments                                       4,758,475
                                                                                        Receivables:
                                                                                            Pledges (Note 3)                                      697,574
                                                                                            Accrued interest                                        12,527
                                                                                            Accounts                                                   135
                                                                                        Total receivables                                         710,236
                                                                                        Total assets                                       $    5,571,679


                                                                                        LIABILITIES AND NET ASSETS
                                                                                        Accounts payable                                    $     340,136
                                                                                        Accrued payroll and annual leave                            66,042
                                                                                        Total liabilities                                         406,178


                                                                                        Net assets (Note 4)
                                                                                            Unrestricted-Undesignated                           2,179,420
                                                                                            Unrestricted-Council designated
                                                                                            for projects                                          112,891
                                                                                            Temporarily donor restricted
                                                                                            for projects                                        2,873,190
                                                                                        Total net assets                                        5,165,501


                                                                                        Total liabilities and net assets                   $    5,571,679

                                                                                        These financial statements should be read only in connection with the
                                                                                        accompanying notes to financial statements.




26    J A M E S   M A D I S O N   C O U N C I L   O F   T H E   L I B R A R Y   O F   C O N G R E S S
              Statement of Activities                                               Statement of Cash Flows
            James Madison National Council Fund                                    James Madison National Council Fund
                   For the Fiscal Year Ended                                               For the Fiscal Year Ended
                      September 30, 2006                                                      September 30, 2006




CHANGES IN UNRESTRICTED NET ASSETS                                      Cash flows from operating activities:
Revenues                                                                   Donations Received                                 $     1,766,322
Membership contributions                            $     890,862          Interest Received                                            147,334
Miscellaneous gifts                                         64,978         Cash paid to others                                          (719,385)
Temporarily restricted donations                          139,300          Cash paid to employees                                       (733,623)
Interest                                                  168,079          Transfer from other funds                                    110,228
Net unrealized gain and realized gain                                      Net cash provided by
on investments (Note 2)                                     67,771         operating activities                               $         570,876
Imputed financing for cost subsidies
(Note 5)                                                    33,010      Cash flows from investing activities:
Royalties                                                    5,790         Investment in U.S. Treasury
Net assets released from restrictions                     523,185          Market Based Securities                            $ (2,386,487)
Total revenues                                          1,892,975          Investment in U.S. Treasury
                                                                           Permanent Loan                                                     0
Expenses (see Schedule B)                                                  Redemption of Investment in
Personnel costs                                           745,504          U.S. Treasury Market Based Securities                   1,886,776
Travel and transportation and                                              Redemption of Investment in
subsistence/support persons                                 42,781         U.S. Treasury Permanent Loan                                       0
Other services                                              75,076         Net cash used by investing
                                                                           activities                                         $         (499,711)
Books and library materials                               344,716
Exhibit opening events, receptions,                                     Net Increase in Cash                                             71,165
and Madison Council meetings                              195,530
                                                                        Cash at beginning of year                                        31,803
Professional and consultant services                      367,306
Office supplies, printing and materials                      1,242      Cash at end of year                                   $         102,968
Total expenses                                          1,772,155
                                                                        Reconciliation of Changes in Net Assets
                                                                        to Net Cash From Operating Activities
Other changes
                                                                        Change in Net Assets                                  $         (172,629)
Transfer from other funds (Note 8)                        (110,228)
Increase in unrestricted net assets                       231,048
                                                                        Adjustments to reconcile changes in
                                                                        net assets to net cash provided from
CHANGES IN TEMPORARILY                                                  operating activities
RESTRICTED NET ASSETS
Contributions                                             119,508       Non-cash gain on mutual fund investments                         (67,771)
Net assets released from restrictions                     (523,185)     Decrease in investment discount                                  (16,800)
Decrease in temporarily restricted                                      Decrease in pledges receivable                                  545,883
net assets                                                (403,677)     Increase in accrued interest receivables                          (3,945)
Decrease in net assets                                    (172,629)     Decrease in accrued payroll and
                                                                        annual leave                                                     (21,130)
Net assets at beginning of year                         5,338,130       Increase in accounts receivable                                     (105)
Net assets at end of year                          $    5,165,501       Increase in accounts payable                                    307,372

                                                                        Total Adjustments                                               743,505
These financial statements should be read only in connection with the
accompanying notes to financial statements.                             Net Cash from Operating Activities                    $         570,876

                                                                        These financial statements should be read only in connection with the
                                                                        accompanying notes to financial statements.




                                                                                                  A N N U A L   R E P O R T   2 0 0 6         27
           Notes to Financial Statements
              James Madison National Council Fund
                         September 30, 2006




                                                                                          C. Use of Estimates
NOTE 1 – REPORTING ENTITY AND SUMMARY OF
                                                                                          The preparation of the Fund’s financial statements in conform-
SIGNIFICANT ACCOUNTING PRINCIPLES
                                                                                          ity with generally accepted accounting principles requires man-
                                                                                          agement to make estimates and assumptions that affect the
A. Description of Fund
                                                                                          amounts reported in the financial statements and accompany-
The James Madison National Council Fund (JMNC Fund) was
                                                                                          ing notes. Actual results could differ from these estimates.
initiated by the Librarian of Congress, accepted through a poll
vote by the Library of Congress Trust Fund Board in July 1989
                                                                                          D. Contributions and Revenue Recognition
and reaffirmed October 7, 1989. A gift of $100,000 from Robert
                                                                                          The Fund records as contribution revenue amounts received in
Gwinn, Chairman of the Board of Encyclopedia Britannica, estab-
                                                                                          the form of cash, promises or pledges to give. Unconditional
lished the Fund. The JMNC Fund is reported in the Library of
                                                                                          promises or pledges to give are recognized as a contribution
Congress gift and trust funds.
                                                                                          receivable. Multi-year pledges or promises due over a period
    The James Madison National Council is an advisory board of
                                                                                          of time are discounted to their present value, based upon pre-
business people and philanthropists that contribute ideas,
                                                                                          vailing interest rates, and recognized in the period of initial
expertise, and financial backing to support the Library’s collec-
                                                                                          pledge.
tions and programs. The Council is open to persons from the
private sector interested in advancing the Library’s outreach
                                                                                          E. Income Tax
mission. There are 93 members of the Council.
                                                                                          The JMNC Fund operates for the benefit of the Library of
    Significant accounting policies followed by the JMNC Fund
                                                                                          Congress, which is an instrument of the United States and, as
are presented below.
                                                                                          such, is not subject to income tax.
B. Basis of Accounting and Presentation
                                                                                          F. Investment Policy
The Fund’s financial statements have been prepared on the
                                                                                          The Library of Congress Trust Fund Board determines the invest-
accrual basis in accordance with generally accepted account-
                                                                                          ment policy for the Library’s trust funds. The policy provides
ing principles.
                                                                                          three options for investment of the JMNC Fund funds:
     The Fund adopted financial reporting standards applicable
to not-for-profit organizations. The financial statements are pre-                        ■     a permanent loan with the U.S. Treasury
pared in accordance with Financial Accounting Standards No.                               ■     a pool of U.S. Treasury market-based securities
117, and recognizes net assets based on the existence of appli-                           ■     a private investment pool consisting of five stock funds and
cable restrictions limiting their use.                                                          one money market fund. The funds recommended by the
     Temporarily restricted net assets result from donor-imposed                                Library of Congress Trust Fund Board’s investment commit-
restrictions that permit the Fund to use or expend the assets                                   tee and approved by the Board are:
after the restriction has been satisfied. When a donor-imposed                            ■     Vanguard Money Market Prime Fund
restriction is satisfied, that is, when a stipulated time restriction                     ■     Vanguard Institutional Index Fund
ends or the purpose of the restriction is accomplished, tem-                              ■     Vanguard Capital Opportunity Fund
porarily restricted net assets are reclassified to unrestricted net                       ■     Fidelity Blue Chip Growth Fund
assets and reported in the Statement of Activities as net assets                          ■     Fidelity Capitol Appreciation Fund
released from restrictions.                                                               ■     Fidelity Growth Company Fund
     Unrestricted net assets result from the receipt of unrestricted                      ■     Fidelity Dividend Growth Fund
contributions, the expiration of donor-imposed restrictions on
                                                                                              Investments in U.S. market-based securities are stated at
contributions, and changes in other assets and liabilities. These
                                                                                          cost net of any unamortized premium or discount, which approx-
assets are available to the Fund for use in support of current
                                                                                          imates market value at September 30, 2006. The permanent
and future operations. The Library of Congress provides sup-
                                                                                          loan is an interest bearing par value investment which equals
port services to the James Madison National Council. The cost
                                                                                          the market value. Stock and money market mutual funds are
of these services are, by their nature, indirect, difficult to quan-
                                                                                          stated at current market value.
tify, and financed with appropriated funds of the Library. To the
extent that these services are provided, they are not consid-
ered operating expenses of the James Madison National
Council.




28        J A M E S   M A D I S O N   C O U N C I L   O F   T H E   L I B R A R Y   O F       C O N G R E S S
                                                                     rebuilding of Jefferson’s library, the purchase of overseas rare
NOTE 2 – INVESTMENTS
                                                                     publications, international digitization of the Library’s collec-
A. U. S. Treasury                                                    tions, the publication of illustrated guides for the special coll-
An act of Congress approved March 3, 1925, and subsequently          cetions, seed money for a major collection and an amount that
amended, permits up to $10 million of trust funds to be invested     is restricted to be used at the discretion of the Librarian of
with the United States Treasury as a perpetual loan, at a floating   Congress for projects that arise that do not have funding or the
interest rate, adjusted monthly, but no less than four percent per   time horizon to raise money for the project.
annum. Other investments with U.S. Treasury were as follows:             Ending Net Assets includes undelivered orders of $474,401
Investment                          Non-Marketable, Market Based
                                                                     which are funds that have been obligated for goods and ser-
                                           Government Securities     vices not yet received for JMNC Fund operations and desig-
Par                                                $ 3,998,114       nated projects.
Unamortized Premium                                $         (35)
Unamortized                                        $    (35,365)     NOTE 5 – IMPUTED FINANCING FOR COST SUBSIDIES
Amortized Cost                                     $ 3,962,714
                                                                     An adjustment of $33,010 was recorded as an imputed financ-
B. Mutual Funds                                                      ing source and a corresponding expense in the accompanying
The JMNC Fund invested $500,000 in the growth and income             financial statements. This adjustment recognizes the full cost of
pool (non-Treasury mutual fund investments) in 1996. Market          pensions and other health and life insurance benefits during
value of the growth and income pool as of September 30, 2006,        the employees’ active years of service.
totaled $795,761.
    The net gain on investments of $67,771 consists of the fol-
lowing: $11,755 realized gain of mutual fund capital gains dis-      NOTE 6 – EXPENSES BY FUNCTIONAL CLASSIFICATION
tributions; $100 realized gain of money market dividends, and        As permitted by SFAS No.117, the Library has elected to present its
$55,916 unrealized gain on the growth and income pool.               operating expenses by natural classification in its Statements of
                                                                     Activities for the period ending September 30, 2006. The functional
                                                                     breakdown of these expenses is as follows (see Schedule B):
NOTE 3 – PLEDGES
                                                                     Fiscal Year 2006 Expenses by Functional Classification               Amount
Contributions of unconditional promises to give (pledges) to
the JMNC Fund are recognized as temporarily restricted rev-          JMNC Fund Projects and Programs                             $   212,664
enue in the period received. They are recorded at their pres-        Members’ Specific Projects                                      523,185
ent value using a market discount rate. Accretion of the dis-        Supporting Activities— Fundraising                            1,036,306
count in subsequent years is also recorded as contribution           Total Expenses                                              $ 1,772,155
revenue. Outstanding pledges of $1,064,611 at September 30,
2006, were discounted through fiscal year 2016 at a market dis-
                                                                     NOTE 7 – RETIREMENT PLANS
count rate and are included in the statement of financial posi-
tion at their discounted present value of $697,574. The amounts      Employees of JMNC Fund participate in two different retire-
due in future years at their current discounted value are: $61,574   ment plans. Civil Service employees participate in the Civil
in fiscal year 2007; $636,000 in fiscal year 2016.                   Service Retirement System (CSRS) or the Federal Employees’
                                                                     Retirement System (FERS). FERS is the system in effect for most
                                                                     employees hired after December 31, 1983.
NOTE 4 – NET ASSETS                                                     In fiscal year 2006, the JMNC Fund paid approximately
The JMNC Net Assets of $5,165,501 are classified as Unrestricted-    $53,169 to fund retirement benefits, excluding FICA taxes.
Undesignated, Unrestricted-Council Designated for Projects or
Temporarily Donor Restricted for Projects. Of this total amount,
                                                                     NOTE 8 – TRANSFER FROM OTHER FUNDS
$2,179,420 is classified as Unrestricted-Undesignated. The bal-
ance of $2,986,081 consisting of $112,891 (Unrestricted-Council      The JMNC fund received $110,228 from the Mariinsky Theater
Designated for Projects) and $2,873,190 (Temporarily Donor           Project Gift Fund, which was the remaining balance from the
Restricted for Projects) is earmarked for initiatives such as the    original fiscal year 2001 gift.

                                                                     This information is an integral part of the accompanying financial statements.




                                                                                                    A N N U A L   R E P O R T   2 0 0 6        29
         Independent Auditor’s Report




                                                                                                             OFFICE OF THE INSPECTOR GENERAL


                                                                                                                                             March 13, 2007
To the Steering Committee                                                                    To the Steering Committee
James Madison National Council Fund                                                          James Madison National Council Fund

We have audited the accompanying statement of financial
                                                                                             We contracted with the independent public accounting firm
position of the James Madison National Council Fund (the Fund)                               of Kearney & Company to audit the Fund’s financial statements.
as of September 30, 2006, and the related statements of                                      The firm is responsible for the attached auditor’s report and the
activities and cash flows for the year then ended. These financial                           opinion and conclusions expressed in that report.
statements are the responsibility of the Fund’s management.
                                                                                             We reviewed Kearney & Company’s report and related
Our responsibility is to express an opinion on these financial
                                                                                             documentation. Our review was not intended to enable us to
statements based on our audit.                                                               express, and we do not express, an opinion on the Fund’s financial
                                                                                             statements, conclusions on internal control, or compliance with
                                                                                             laws and regulations. Our review disclosed no instances in which
                                                                                             Kearney & Company did not materially comply with U.S.
SUMMARY
                                                                                             generally accepted government auditing standards.
As stated in our opinion on the financial statements, we have
concluded that the Fund’s financial statements for the year
ended September 30, 2006, are presented fairly, in all material
respects, in conformity with accounting principles generally                                                                             Karl W. Schornagel
accepted in the United States of America.                                                                                                Inspector General
    Our consideration of internal control over financial report-
ing disclosed no material weaknesses.
    The results of our tests of compliance with certain provisions
of laws and regulations disclosed no instances of noncompli-
                                                                                          Standards issued by the Comptroller General of the United States,
ance that are required to be reported under Government
                                                                                          and Office of Management and Budget (OMB) Bulletin No. 06-
Auditing Standards issued by the Comptroller General of the
                                                                                          03, Audit Requirements for Federal Financial Statements. Those
United States.
                                                                                          standards require that we plan and perform the audit to obtain
    The following sections present our opinion on the Fund’s
                                                                                          reasonable assurance about whether the financial statements
financial statements, our consideration of the Fund’s internal
                                                                                          are free of material misstatement. An audit includes examining,
control over financial reporting, our tests of the Fund’s compli-
                                                                                          on a test basis, evidence supporting the amounts and disclo-
ance with certain provisions of applicable laws and regulations,
                                                                                          sures in the financial statements. An audit also includes an assess-
and management’s and our responsibilities.
                                                                                          ment of the accounting principles used and significant estimates
                                                                                          made by management, as well as an evaluation of the overall
                                                                                          financial statement presentation. We believe that our audit pro-
OPINION ON FINANCIAL STATEMENTS
                                                                                          vides a reasonable basis for our opinion.
    We have audited the accompanying statement of financial                                   In our opinion, the financial statements referred to above
position of the Fund as of September 30, 2006, and the related                            present fairly, in all material respects, the financial position of
statements of activities and cash flows for the year then ended.                          the Fund as of September 30, 2006, and the changes in its net
These financial statements are the responsibility of the Fund’s                           assets and cash flows for the year then ended in conformity
management. Our responsibility is to express an opinion on                                with accounting principles generally accepted in the United
these financial statements based on our audit.                                            States of America.
    We conducted our audit in accordance with auditing standards                              Our audit was performed for the purpose of forming an opin-
generally accepted in the United States of America, the standards                         ion on the basic financial statements taken as a whole. The
applicable to financial audits contained in Government Auditing                           accompanying supplemental information contained in Schedules




30        J A M E S   M A D I S O N   C O U N C I L   O F   T H E   L I B R A R Y   O F    C O N G R E S S
A and B is presented for purposes of additional analysis and is        Support System (GSS) and Entity-Wide Security Program, which
not a required part of the basic financial statements. Such infor-     we described as reportable conditions. Specifically, we noted
mation has been subjected to the auditing procedures applied           that the Library had not fully implemented an Entity-Wide
in the audit of the basic financial statements and, in our opinion,    Security Program and in addition we identified control weak-
is fairly stated, in all material respects, in relation to the basic   nesses in the Library’s GSS which affected the availability,
financial statements taken as a whole.                                 integrity, and confidentiality of all applications and data resid-
                                                                       ing in the processing environment. During fiscal year 2006,
                                                                       the Library completed the implementation of enhancements
INTERNAL CONTROL OVER FINANCIAL REPORTING                              addressing the above weaknesses and therefore Information
                                                                       Technology (IT) internal control weaknesses are no longer con-
In planning and performing our audit, we considered the Fund’s
                                                                       sidered reportable conditions. IT internal controls exist in a
internal control over financial reporting by obtaining an under-
                                                                       dynamic environment where new risks are constantly evolv-
standing of the Fund’s internal control, determined whether
                                                                       ing. Consequently, continued management commitment to
internal controls had been placed in operation, assessed con-
                                                                       an effective IT internal control environment will be essential
trol risk, and performed tests of controls in order to determine
                                                                       to ensure that the Library’s financial and sensitive information
our auditing procedures for the purpose of expressing an opin-
                                                                       will be adequately protected in this new environment.
ion on the financial statements. We limited our internal control
testing to those controls necessary to achieve the objectives
described in OMB Bulletin No. 06-03. We did not test all inter-
                                                                       COMPLIANCE AND OTHER MATTERS
nal controls relevant to operating objectives as broadly defined
by the Federal Managers’ Financial Integrity Act of 1982, such         Management of the Fund is responsible for complying with laws
as those controls relevant to ensuring efficient operations. The       and regulations applicable to the Fund. As part of obtaining
objective of our audit was not to provide assurance on internal        reasonable assurance about whether the Fund’s financial state-
control. Consequently, we do not provide an opinion on inter-          ments are free of material misstatement, we performed tests
nal control.                                                           of its compliance with certain provisions of laws and regula-
    Our consideration of the internal control over financial report-   tions, noncompliance with which could have a direct and mate-
ing would not necessarily disclose all matters in the internal         rial effect on the determination of financial statement amounts
control over financial reporting that might be reportable con-         and certain other laws and regulations specified in OMB Bulletin
ditions. Under standards issued by the American Institute of           No. 06-03. We limited our tests of compliance to these provi-
Certified Public Accountants, reportable conditions are matters        sions and we did not test compliance with all laws and regula-
coming to our attention relating to significant deficiencies in        tions applicable to the Fund.
the design or operation of the internal control that, in our judg-          The results of our tests of compliance with the laws and regu-
ment, could adversely affect the Fund’s ability to record, process,    lations described in the preceding paragraph disclosed no instances
summarize, and report financial data consistent with the asser-        of noncompliance that are required to be reported under
tions by management in the financial statements. Material weak-        Government Auditing Standards and OMB Bulletin No. 06-03.
nesses are reportable conditions in which the design or opera-              Providing an opinion on compliance with certain provisions
tion of one or more of the internal control components does            of laws and regulations was not an objective of our audit and,
not reduce to a relatively low level the risk that misstatements       accordingly, we do not express such an opinion.
in amounts that would be material in relation to the financial              This report is intended solely for the information and use of
statements being audited may occur and not be detected within          the Steering Committee, management, and Congress, and is
a timely period by employees in the normal course of perform-          not intended to be and should not be used by anyone other
ing their assigned functions. Because of inherent limitations in       than these specified parties.
internal controls, misstatements, losses, or noncompliance may
nevertheless occur and not be detected. We noted no matters
involving internal control and its operations that we consider
to be material weaknesses.
    The Fund is a component of the Library of Congress’ (the
Library) consolidated financial statements. In prior years, we         January 23, 2007
reported on weaknesses we identified in the Library’s General          Alexandria, Virginia




                                                                                                  A N N U A L   R E P O R T   2 0 0 6   31
          Supplemental Information
         James Madison National Council Fund




SCHEDULE A
Schedule of Net Assets Available for Designation


Total Net Assets                                      $        5,165,501
Net assets restricted by donors
for projects                                                   (2,873,190)
Net assets designated by the
Council for projects                                            (112,891)
Total restricted or designated
net assets                                                     (2,986,081)
Net Assets Available for Designation                   $       2,179,420




SCHEDULE B
Schedule of Expenditures
                                                                      Fund                         Members’        Supporting
                                                               Projects and                         Specific       Activities —
                                                                  Programs                          Projects       Fundraising           Total


Personnel costs                                            $            (29)                  $    143,319     $     602,214      $   745,504
Travel and transportation and
subsistence/support persons                                                 0                              0          42,781           42,781
Other services                                                     10,000                           30,118            34,958           75,076
Books and library materials                                                 0                      344,716                   0        344,716
Exhibit Opening Events, Receptions,
and Madison Council Meetings                                                0                         5,032          190,498          195,530
Professional and consultant services                              202,693                                  0         164,613          367,306
Office supplies, printing and materials                                     0                              0            1,242           1,242
Totals                                                          $212,664                          $523,185     $ 1,036,306        $ 1,772,155




32        J A M E S   M A D I S O N   C O U N C I L   O F      T H E   L I B R A R Y   O F   C O N G R E S S
